U.S. Department of                                       The Inspector General           Office of Inspector General
Transportation                                                                           Washington, D.C. 20590
Office of the Secretary
of Transportation

January 11, 2010

The Honorable Claire McCaskill
717 Hart Senate Office Building
U.S. Senate
Washington, DC 20510

Dear Senator McCaskill:

This is in response to your request that we report FAA’s progress in implementing our
recommendations to improve its oversight of outsourced aircraft maintenance. As
you know, we have reported on this issue three times since 2003, resulting in
23 recommendations. We also testified in 2007 before the Senate Subcommittee on
Aviation Operations, Safety, and Security. 1 During that hearing, we noted that FAA
had made a number of procedural improvements but that the growth in maintenance
outsourcing would demand heightened vigilance and continual action on the part of
FAA.

As airlines increasingly outsource maintenance to external repair stations to reduce
operating costs, our audits focused on the following concerns:

    • Ensuring FAA targets oversight to where maintenance is actually performed,

    • Establishing FAA oversight at non-certificated facilities, which perform the same
      type of maintenance as certificated facilities but without regulatory oversight, and

    • Adapting FAA’s oversight of outsourced maintenance to a risk-based model.

Overall, FAA has responded positively to our recommendations and has proposed
actions we believe will enhance its oversight of domestic and foreign repair stations.
To date, however, FAA has completed action on only 7 of our 23 recommendations
and has not sufficiently addressed the remaining 16. The following summarizes our
key report findings and provides FAA’s status with regard to respective
recommendations.


1
    OIG Testimony Number CC-2007-076, “Aviation Safety: FAA Oversight of Foreign Repair Stations,” June 20, 2007.
                                                                                                              2

Review of Air Carriers’ Use of Aircraft Repair Stations
Despite the increase in air carriers’ use of external repair facilities, we reported in
2003 that FAA concentrates its oversight of airline maintenance on work performed at
the air carrier’s in-house facilities. Many repair stations are located in foreign
countries but are certificated by FAA to perform critical aircraft maintenance, such as
complete airframe teardowns and engine overhauls. FAA permits foreign authorities
to inspect these facilities on its behalf to prevent duplicative inspections and reduce
the financial burden on foreign repair stations. Yet, we found that FAA had not
implemented adequate oversight procedures. As a result, foreign inspectors do not
provide FAA with sufficient information to determine what was inspected at the
facility, what problems were found, and how they were corrected. Our report made
nine recommendations, seven of which have been completed by FAA. However, the
two recommendations FAA has yet to act on are the most significant in that they
require FAA to develop a process to identify trends in aircraft maintenance and
determine where the most critical maintenance is performed. FAA proposed plans to
complete actions for the remaining two recommendations by December 31, 2009,
once it receives feedback from industry and inspectors on a proposed change that will
redefine critical maintenance.           Until FAA completes actions for these
recommendations, it will be unable to effectively target inspector resources to repair
stations that perform critical aircraft maintenance.
                                                                                           FAA          FAA
Recommendations: Review of Air Carriers’ Use of Aircraft Repair Stations                 Propose      Complete
                                                                                         Action?       Action?
   Collect/monitor air carrier maintenance financial data to identify trends in the source  Yes          No*
1
   of maintenance and make shifts in inspector resources as warranted.
   Develop a process to (a) identify repair stations that air carriers use to perform          Yes         No*
   aircraft maintenance; (b) identify the repair stations that are performing safety critical
2
   repairs; and (c) target inspector resources based on risk assessments, or analysis of
   data collected on air carrier outsourcing practices.
   Implement procedures to improve information sharing through FAA’s newly                     Yes         Yes
   integrated Safety Performance Analysis System by (a) requiring certificate
   management inspectors to document the name of the repair stations they have
3
   reviewed in the Air Transportation Oversight System database and (b) requiring
   district office inspectors to include the areas inspected, the results, and corrective
   actions taken in the Program Tracking and Reporting System.
   Develop a comprehensive, standardized approach to repair station surveillance by            Yes         Yes
4 requiring inspectors to review all aspects of repair station operations, from the time
   the repair is received until it is released to the customer.
   Modify existing inspection documentation requirements with foreign aviation                 Yes         Yes
5 authorities so that FAA receives sufficient documentation to ensure FAA-certified
   repair stations meet FAA standards.
   Develop a process to capture results from (a) foreign aviation authority inspections        Yes         Yes
6 and (b) FAA sample inspections of foreign repair stations in FAA’s Program Tracking
   and Reporting System.
   Develop procedures to verify that foreign aviation authorities place adequate               Yes         Yes
7
   emphasis on FAA regulations when conducting reviews at FAA-certified facilities.
   Clarify requirements with foreign aviation authorities to ensure that changes to FAA-       Yes         Yes
8 certified foreign repair stations’ operations that directly impact FAA requirements are
   sent to FAA for approval.
 *FAA recently provided information indicating that it has taken action to implement this recommendation. May be
 closed pending our review of these proposed actions.



CC-2009-079
                                                                                                                 3

                                                                                                  FAA       FAA
Recommendations (cont.): Review of Air Carriers’ Use of Aircraft Repair Stations                Propose   Complete
                                                                                                Action?    Action?
  Modify procedures for conducting sample inspections to permit FAA inspectors to (a)              Yes       Yes
  conduct the number of inspections necessary to gain assurance that foreign aviation
  authority inspections meet FAA standards during the initial implementation periods
9
  when foreign authorities conduct inspections on FAA’s behalf; and (b) base the
  number of inspections in subsequent years on analysis of data collected from prior
  sample inspections.
 OIG Report Number AV-2003-047, July 8, 2003.

 Review of Air Carriers’ Use of Non-Certificated Repair Facilities
 Although air carriers have used non-certificated facilities for years to perform minor
 or emergency repairs, we reported in 2005 that carriers now use these facilities to
 perform scheduled and critical maintenance. Neither FAA nor air carriers provide
 regular on-site reviews of the maintenance performed at these facilities. In its
 response to our report, FAA stated that we overlooked the fact that repairs at non-
 certificated facilities were performed by mechanics who hold FAA certificates. FAA
 indicated this was a key factor in ensuring the quality of the repair work. While we
 acknowledge this fact, it is important to point out a key distinction that carries risk.
 FAA-certificated facilities rely on approved quality control systems, multiple levels of
 oversight, and training programs to ensure that repairs are performed properly,
 whereas non-certificated facilities have none of these controls. Having certificated
 mechanics is important but not an adequate substitute. Our report made seven
 recommendations, but to date FAA has not taken any actions. FAA states it will take
 action pending feedback from industry and inspectors on a proposed change that will
 redefine critical maintenance. We plan to meet with FAA in January 2010 to resolve
 these recommendations.
                                                                                                  FAA       FAA
Recommendations: Review of Air Carriers’ Use of Non-Certificated Repair
                                                                                                Propose   Complete
Facilities
                                                                                                Action?    Action?
    Inventory air carrier vendor lists that include all maintenance providers working on air       No        No
1   carrier aircraft and identify non-certificated repair facilities performing critical or
    scheduled maintenance.
    Determine whether it should limit the type of work non-certificated facilities can            No        No
2
    perform.
    Expand its maintenance oversight program to include non-certificated repair facilities        No        No
3
    if no limitations are placed on the type or scope of work they perform.
    Review air carrier training programs as part of FAA’s oversight of air carrier                No        No
    operations to ensure mechanics at non-certificated repair facilities (a) are qualified to
4   maintain aircraft in accordance with FAA and air carrier requirements and (b) receive
    training for critical repairs that is equivalent to the training provided to air carrier
    mechanics performing the same type of repairs.
    Review air carrier training programs to ensure mechanics at non-certificated repair           No        No
5   facilities have been adequately trained on preparing maintenance records in
    accordance with FAA and air carrier procedures.
    Review air carriers’ audit programs for non-certificated repair facilities as part of its     No        No
6   oversight of air carrier operations to ensure each carrier has established a standard
    and in-depth process for evaluating these facilities.




 CC-2009-079
                                                                                                                   4

                                                                                                   FAA       FAA
Recommendations (cont.): Review of Air Carriers’ Use of Non-Certificated Repair
                                                                                                 Propose   Complete
Facilities
                                                                                                 Action?    Action?
  Determine whether air carriers evaluate the background, experience, and                           No        No
  qualifications of the temporary maintenance personnel used by contractors to ensure
7
  the work they perform is completed in accordance with FAA and air carrier
  requirements.
OIG Report Number AV-2006-031, December 15, 2005.

Air Carriers’ Outsourcing of Aircraft Maintenance
While FAA has recently begun moving its safety oversight toward a risk-based
system, we reported in 2008 that it still relies too heavily on air carriers’ oversight
procedures, which are not always sufficient. Specifically, FAA does not have (1) an
adequate system for determining how much and where the most critical maintenance
occurs, (2) a specific policy governing when its inspectors should visit repair stations
performing substantial maintenance, and (3) adequate controls to ensure that
inspectors document findings in the national database and review related findings by
other inspectors. In addition, FAA does not require inspectors to validate that repair
stations have corrected deficiencies identified in air carrier audits. Our report made
seven recommendations to FAA. While FAA proposed corrective actions, it has yet
to complete these actions.

One recommendation was a carryover from our July 2003 report—to identify repair
stations performing safety-critical repairs and repair stations air carriers use most
often. While FAA had responded by establishing a system in 2007 for air carriers and
repair stations to report the volume of outsourced repairs, our 2008 review found it
was inadequate. The system relies on voluntary reporting, and inspectors do not
validate the reported data. FAA initially agreed to improve the system by
March 2009, but the completion date has slipped indefinitely. FAA stated that it
intended to implement our other six recommendations by December 31, 2009.

Recommendations: Air Carriers’ Outsourcing of Aircraft Maintenance                                 FAA       FAA
                                                                                                 Propose   Complete
                                                                                                 Action?    Action?
    Improve its maintenance data reporting system by revising its guidance to include all          Yes       No*
    maintenance providers performing repairs of critical components--not just the top 10
1
    substantial maintenance providers--and developing procedures for inspectors to
    validate the accuracy and consistency of reports.
    Require CMO inspectors to conduct (a) initial baseline inspections of substantial              Yes       No*
    maintenance providers to assess whether the maintenance providers are in
2
    compliance with air carriers’ procedures and (b) follow-up inspections to determine
    whether this baseline assessment has changed.
    Reassess its definition of substantial maintenance to include critical components and          Yes       No*
3
    ensure that air carriers and FAA offices consistently apply the definition.
    Require inspectors to (a) follow up to verify that deficiencies identified by air carriers     Yes       No*
    have been corrected at repair stations and (b) ensure that repair stations have
4
    adequate processes for conducting audits, correcting identified deficiencies, and
    performing trend analyses of findings.




CC-2009-079
                                                                                                              5

Recommendations (cont.): Air Carriers’ Outsourcing of Aircraft Maintenance                  FAA         FAA
                                                                                          Propose     Complete
                                                                                          Action?      Action?
    Develop controls to ensure inspectors are complying with inspector guidance to          Yes         No*
5   document their findings in FAA’s inspection database and review the inspection
    database for previous findings.
    Ensure air carriers document inspections conducted by air carriers’ on-site technical      Yes        No*
6
    representatives at heavy airframe maintenance providers.
    Encourage the industry best practice of using airworthiness agreements between air         Yes        No
7 carriers and repair stations that more clearly define maintenance procedures and
    responsibilities.
 OIG Report Number AV-2008-090, September 30, 2008.
*FAA recently provided information indicating that it has taken action to implement this recommendation. May be
 closed pending our review of these proposed actions.

 In closing, FAA needs to continue to move forward with its timetable for completing
 its proposed actions and expedite those actions, given air carriers’ rapidly increasing
 use of contract maintenance providers. On December 11, 2009, FAA provided
 information indicating it had developed new guidance, which it believes will address
 8 of the remaining 16 recommendations. Although it has taken FAA more than
 6 years to address our concerns, we are encouraged with this development. However,
 we will reserve our determination on whether to close those recommendations until
 we have conducted a thorough analysis of FAA’s proposed actions. We will continue
 to monitor FAA’s progress and keep you and your staff apprised as we obtain further
 information. If you have any questions, please contact me at (202) 366-1959 or
 Lou E. Dixon, Assistant Inspector General for Aviation and Special Program Audits,
 at (202) 366-0500.

 Sincerely,



 Calvin L. Scovel III
 Inspector General




 CC-2009-079
